Oversight Review     November 7, 2008


   FY 2008 External Reviews of the
     Quality Control Systems of the
  Military Department Audit Agencies

       Report No. D-2009-6-002
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of the
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
  (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1017)
                                 Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
  by sending an electronic message to Hotline@dodig.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms
AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
NAVAUDSVC             Naval Audit Service
OAIG-APO              Office of the Assistant Inspector General for Audit Policy and Oversight
PCIE                  President’s Council on Integrity and Efficiency
SAP                   Special Access Programs
review also identified issues with documentation of independence. Those issues included
lack of documentation, incomplete documentation, or documentation of independence of
audit staff months after assignment to the audit.

              Planning. All three of the Military Department audit agencies’ quality
control reviews of the SAP audits addressed areas for improvement in planning. In
addition to the quality control reports of the SAP audits, one quality control report of the
non-SAP audits also identified an issue with planning. Each review identified specific
areas for improvement for planning. Those improvements included not preparing audit
and survey programs at the beginning of each phase of the audit, changes made to the
audit program without evidence of supervisory approval, and not including steps for the
risk assessment for fraud. Recommendations were made in the quality control reports for
auditors to comply with the corresponding internal audit policy for each issue identified.

              Supervision. For supervision, each of the Military Department audit
agencies’ non-SAP audit quality control reviews addressed that supervision needed
improvement. In addition, one SAP audit quality control review also identified needed
improvements in the area of supervision. Each review identified specific areas for
improvement for supervision. Those improvements included that supervisory reviews
did not occur timely and that working papers did not contain evidence of supervisory
reviews. While the policies that were established were appropriate to implement the
Government Auditing Standards for supervision, it was recommended that supervisors be
reminded and made aware of the requirements and the importance for following the
policies.

               Reporting. Each of the Military Department audit agencies’ non-SAP
audit quality control reviews identified areas for improvement for reporting. Each review
identified specific improvements for reporting. Some of those improvements included:

          • clearly state why the audit organization undertook the audit,

          • appropriately mention if the auditors established the reliability of the data,

          • clearly identify an evaluation of internal controls, and

          • clearly represent management comments.




                                             2
       Other Issues. While not all the reports addressed areas for improvement in the
following areas, the reports identified issues with quality control, competence, and
evidence and documentation. For each of these areas, the reports contained
recommendations or suggestions for improvements by either improving internal audit
policies or having managers provide reminders to comply with internal audit policies.

       Ensuring Integrity of Audit Documentation. The FY 2005 quality control
reviews of the Military Department audit agencies identified that each organization had
modifications or additions to audit documentation after final report issuance. None of the
Military Department audit agencies identified this as an issue in the FY 2008 quality
control reviews.

       External Review Process and Methodology. The Office of the Assistant
Inspector General for Audit Policy and Oversight (OAIG-APO) and the Military
Department audit agencies used the 2005 President’s Council on Integrity and Efficiency
(PCIE) External Peer Review Guide to conduct their reviews of the Military Department
audit agencies audits operations and modified the guide as appropriate. We performed
procedures to provide a basis for reliance on the Military Department audit agencies
review results and to ensure that the PCIE guidelines were consistently applied. We
attended planning meetings, reviewed point papers for each of the audits selected, and
reviewed previous quality control reviews for implementation of suggested actions or
recommendations.

       For the review of SAP audits, we judgmentally selected up to three SAP audits
from each Military Department audit agency to review. We reviewed the SAP audits
using the guide as modified to ensure consistency with the Military Department audit
agencies’ review of non-SAP audits, and to reflect the unique nature of auditing within a
SAP environment.

        Limitations of Reviews. The external reviews of the quality control systems
performed by the Military Department audit agencies and OAIG-APO would not
necessarily disclose all weaknesses in the system of quality control or all instances of
noncompliance with it because the reviews were based on selective tests. There are
inherent limitations in considering the potential effectiveness of any quality control
system. In performing most control procedures, departures can result from
misunderstanding of instructions, mistakes of judgment, carelessness, or other human
factors. Projecting any evaluation of a quality control system into the future is subject to
the risk that one or more procedures may become inadequate because conditions may
change or the degree of compliance with procedures may deteriorate.




                                             3
